U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 20, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Stephen Gustus v. United States of America,
S.Ct. No. 19-939

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 27,
2020, and placed on the docket on January 28, 2020. The government's response is due on
February 27, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 30, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0939
GUSTUS, STEPHEN
USA

ERIC F. CITRON
GOLDSTEiN & RUSSELL, P.C.
7475 WISCONSIN AVE.
SUITE 850
BETHESDA, MD 20814
202-362-0636
ECITRON@GOLDSTEINRUSSELL.COM
NICOLE LYBRAND
ASSISTANT FEDERAL DEFENDER
FEDERAL DEFENDERS OFFICE
1401 W. CAPITOL AVE.
SUITE 490
LITTLE ROCK, AR 72201
501-324-6113
NICOLE_LYBRAND@FD.ORG

